        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department's Management of
the Smart Grid Investment Grant
Program




OAS-RA-12-04                        January 2012
                                  Department of Energy
                                     Washington, DC 20585
                                         January 20, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department's Management of
                          the Smart Grid Investment Grant Program"

INTRODUCTION AND OBJECTIVE

The Energy Independence and Security Act of 2007 charged the Department of Energy with
establishing the Smart Grid Investment Grant (SGIG) program. More recently, the American
Recovery and Reinvestment Act of 2009 (Recovery Act) provided the Department's Office of
Electricity Delivery and Energy Reliability (OE) with $3.5 billion to fund the SGIG program and
to assist in modernizing the Nation's power grid. The SGIG program was to facilitate the
installation of state-of-the-art information technologies and, ultimately, improve grid reliability
and enable consumers to reduce the amount of energy used. The program required that the
portion of a recipient's project paid for with Federal funds not exceed 50 percent of the total
project cost. The Department awarded all of its available grant funds to 99 recipients, with
awards ranging in value from $397,000 to $200 million.

Reliability of the grid, specifically, ensuring that the Nation's power grid is adequately protected
from malicious cyber attacks has been and continues to be an area of concern in both the public
and private sectors. Our report on the Federal Energy Regulatory Commission's Monitoring of
Power Grid Cyber Security (DOE/IG-0846, January 2011) disclosed weaknesses related to the
Critical Infrastructure Protection cyber security standards. In addition, the U.S. Government
Accountability Office's report on Electricity Grid Modernization (GAO-11-117, January 2011)
identified weaknesses regarding the implementation and enforcement of Smart Grid cyber
security guidelines. Given the importance of developing an effective and secure Smart Grid, we
performed this audit to determine whether the Department adequately administered and
monitored the SGIG program.

RESULTS OF AUDIT

Although the Department had taken a number of positive actions, our audit revealed several
opportunities to enhance management of the SGIG program. The problems that we discovered
could jeopardize achievement of Recovery Act goals. In particular, we found that:

   •   Department officials approved Smart Grid projects that used Federally-sourced funds to
       meet cost-share requirements. Although specifically prohibited by regulation, one
       grantee inappropriately used $1.8 million in Federal funds to meet grant cost-share
       obligations. This practice is prohibited under the SGIG program because it effectively
       increased the Federal portion of the project to more than the maximum 50 percent cost-
       share. In addition, one recipient was reimbursed twice for the same costs related to
       transportation. The transportation costs were reimbursed as both direct cost and as part
       of the overhead cost calculation, and represented reimbursement of almost $300,000
       more than appropriate through June 2011; and,

   •   Three of the five cyber security plans (required to be submitted by grantees) which we
       reviewed were incomplete, and did not always sufficiently describe security controls and
       how they were implemented. Department officials noted that Federal involvement was
       limited when managing grants, but they had required grant recipients to develop cyber
       security plans that supported the strategy outlined in the grant application and described a
       minimum set of security elements, such as risk assessment and system security incident
       response. However, a Department review revealed that 36 of 99 cyber security
       approaches submitted as part of the grant application lacked one or more required
       elements. In our review of security plans, we noted that the plans did not always include
       sufficient information related to risk assessments and/or other important elements, and,
       that they did not fully address many of the weaknesses initially identified by the
       Department.

The issues we found were due, in part, to the accelerated planning, development, and deployment
approach adopted by the Department for the SGIG program. In particular, the Department had
not always ensured that certain elements of the SGIG program were adequately monitored.
There was no assurance that the Department's grant monitoring methodology was completely
effective. Furthermore, officials approved cyber security plans for Smart Grid projects even
though some of the plans contained shortcomings that could result in poorly implemented
controls. We also found that the Department was so focused on quickly disbursing Recovery Act
funds that it had not ensured personnel received adequate grants management training.

Without improvements, there remains a risk that the goals and objectives of the Smart Grid
program may not be fully realized. From a business management perspective relating to
taxpayer-provided funding, we questioned reimbursements totaling more than $2 million for
activities related to the use of Federal funds to meet cost-share obligations and duplicate cost
reimbursement.

Notably, the Department had taken actions to ensure that submitted SGIG proposals were
reviewed and evaluated prior to providing financial assistance to projects that enabled
improvements and modernization of the electric transmission and distribution system. For
instance, OE developed an extensive process for assessing the impacts and benefits of the
various Smart Grid projects. Reviews were performed on proposals by subject matter experts,
technical topic managers, and a merit review committee. In addition, program officials
performed a number of monitoring functions over recipients' activities associated with the grants.
These are positive actions; however, in our view, additional effort is necessary to ensure that the
grants are adequately managed over their lifecycle so that program objectives can be met. As
such, we have made several recommendations that, if fully implemented, should help improve
the Department's ability to effectively administer and monitor the SGIG program.



                                                 2
MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that it will
take steps to respond to the recommendations. Management, however, expressed concerns with
a number of assertions made in our report. Management's comments, including its concerns and
our response, are more thoroughly discussed in the body of the report and are included in their
entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Assistant Secretary, Office of Electricity Delivery and Energy Reliability
      Chief of Staff
      Acting Chief Financial Officer
      Chief Information Officer




                                                3
REPORT ON THE DEPARTMENT'S MANAGEMENT OF THE SMART
GRID INVESTMENT GRANT PROGRAM


TABLE OF
CONTENTS


Management and Cyber Security Controls

Details of Finding ............................................................................................................................1

Recommendations and Comments ...................................................................................................6


Appendices

1. Objective, Scope and Methodology ...........................................................................................9

2. Related Reports ........................................................................................................................10

3. Management Comments ..........................................................................................................11
The Department's Management of the Smart Grid Investment Grant
Program

Management and      Our review revealed several opportunities to improve certain
Cyber Security      aspects of the Department of Energy's (Department) Smart Grid
Controls            Investment Grant (SGIG) program. In particular, although the
                    initial Funding Opportunity Announcement stated that Federally-
                    sourced funds were not to be used for cost-share requirements, we
                    determined that the Department had approved one Smart Grid
                    project that utilized Federal funds to meet cost-share requirements.
                    In addition, we identified one recipient that was reimbursed twice
                    for the same costs related to transportation. Furthermore, cyber
                    security plans developed by recipients were not always complete,
                    and did not sufficiently describe security controls and how they
                    were to be implemented.

                                      Approval of Smart Grid Projects

                    We found that the Department had approved one Smart Grid
                    project even though the grant recipient's application noted its intent
                    to use Federally-sourced reimbursements from work performed by
                    its partner utilities on the same grant to meet a portion of its
                    required cost-share. The SGIG program required that the
                    recipient's cost-share be at least 50 percent of the total project cost
                    and no funds from a Federal source be used to meet this
                    requirement. We observed, however, that for one particular grant
                    the recipient retained its partners' Federally-sourced
                    reimbursement to meet the cost-share requirements for its portion
                    of the project. As a result, we determined that the Department had
                    funded 60 percent of the recipient's project – significantly more
                    than the mandated 50 percent limit. As such, we questioned the
                    Department's reimbursement of more than $1.8 million in
                    American Recovery and Reinvestment Act of 2009 (Recovery Act)
                    funds for that particular grant.

                                            Cost Reimbursement

                    The Department did not always follow effective business practices
                    when reimbursing grant recipients. In particular, we identified one
                    recipient that was reimbursed twice for the same costs related to
                    transportation. While the recipient billed costs totaling almost
                    $600,000 and was reimbursed one-half of that amount for direct
                    transportation, it had also included transportation costs as part of
                    its overhead rate calculation. As these costs should be properly
                    classified as an element of the recipient's indirect costs, we
                    questioned the reimbursement of almost $300,000 more than
                    necessary through June 2011. Office of Electricity Delivery and
                    Energy Reliability (OE) officials stated that all indirect rates would



Page 1                                                                Details of Finding
         be reviewed and reconciled prior to closing out individual grants
         and recipients would be responsible for reimbursing the
         Department for any overpayments. However, we believe this
         practice presents an unnecessary risk because the Department may
         have difficulty recovering funds from recipients if they become
         unable to meet the terms of their grant agreements.

                                   Cyber Security

         Cyber security plans submitted by recipients were not always
         complete or they did not describe intended controls in sufficient
         detail. As part of the grant application process, OE required each
         applicant to submit its approach to cyber security as part of its
         award application. Using a two-tier review conducted by subject
         matter experts, officials identified one or more required elements
         lacking in 36 of 99 (36 percent) cyber security approaches
         submitted in the grant applications. When the grants were
         awarded, the Department instructed recipients to develop a cyber
         security plan consistent with the approaches presented as part of
         the grant application process. In addition, cyber security plans
         were to, at a minimum, describe the recipients' approaches to
         detecting, preventing, and communicating with regard to,
         responding to, and recovering from system security incidents.
         Further, cyber security plans were required to contain detailed
         descriptions of the recipients' risk assessment processes, risk
         mitigation strategies, and other elements of their cyber security
         programs. However, although the Department approved these
         updated plans, our review found that the initial weaknesses had not
         always been fully addressed, and did not include a number of
         security practices commonly recommended for Federal
         government and industry systems. For instance:

            •   One recipient's cyber security plan provided only a
                summary description of its cyber security processes. While
                the plan addressed cyber security concerns related to the
                Smart Grid, it did not provide adequate details related to
                the risk assessment or mitigation processes. In addition,
                cyber security elements were discussed in general terms,
                and quality assurance and overall impact on grid security
                was not presented in detail. For instance, the recipient's
                approach to detecting, preventing, and communicating
                system security incidents was not adequately described. In
                particular, the plan stated that the recipient used
                monitoring, logging, and alerting technologies to detect
                incidents and exploits, but did not detail how these systems
                worked in its specific environment. Also, no detail was
                provided to explain how detected incidents were contained

Page 2                                                   Details of Finding
                and corrected to restore systems. Without a thorough
                description of these processes, the Department, grantee, and
                other related parties cannot determine if those elements are
                being properly implemented.

            •   Another recipient submitted a cyber security plan that was
                based on guidance developed by the National Institute of
                Standards and Technology (NIST). However, the plan
                contained only the minimal elements required by the
                Department in the Funding Opportunity Announcement and
                did not provide sufficient detail regarding how the elements
                would be implemented in the recipient's environment. For
                example, the plan indicated that the recipient had a risk
                assessment and mitigation process in place. However, the
                recipient commented that, while risks and mitigation
                strategies were included in the plan, a formal risk
                assessment had never been performed. Without a formal
                risk assessment and associated mitigation strategy, threats
                and weaknesses may go unidentified and expose the
                recipient's systems to an unacceptable level of risk.

         Despite the shortcomings in cyber security plans described above,
         we were informed that recipients were given the 3-year duration of
         the award to implement agreed-upon cyber security controls. We
         acknowledge that the security plans will evolve as systems are
         developed and implemented. However, this practice may be
         problematic in that any existing gaps in a recipient's security
         environment could allow system compromise before controls are
         implemented. Likewise, approved elements that were not well-
         defined in the plan could leave the system susceptible to
         compromise even after the cyber security plan had been fully
         implemented. For example, without a well-defined risk
         management process, potential risks may go unidentified and
         related mitigating controls may not be implemented. Notably,
         Department officials told us that they are addressing risks by
         requiring that Technical Project Officers (TPO) and subject matter
         experts review the cyber security posture and recommend updates
         to cyber security policies when they perform their annual site visits
         to grant recipients. Additionally, to the Department's credit, it
         created a website tailored to the cyber security needs of the SGIG
         projects, conducted webinars to provide technical assistance, and
         conducted a cyber security information exchange with all
         recipients to share the results of site visits and best practices.

         In comments on our report, Department officials noted that, due to
         the nature of grants, Federal government involvement in the
         management of projects was limited, and indicated that including

Page 3                                                    Details of Finding
               the requirement to develop a cyber security plan in the grant terms
               and conditions was an extra measure taken to ensure that this area
               was addressed. We commend the Department for its efforts to
               develop a cyber security strategy; however, we believe that
               continuing attention is needed to help strengthen grantee plans.
               Department officials told us that they are committed to monitoring
               grantees throughout the 3-year implementation cycle to ensure that
               plans are updated as needed.

Performance    The issues identified were due, in part, to the accelerated planning,
Monitoring     development, and deployment approach adopted by the
and Training   Department for the SGIG program. In particular, the Department
               had not ensured that the methodology used by the TPOs was
               completely effective for monitoring Smart Grid grants. In
               addition, because the Department was focused on quickly
               disbursing Recovery Act funds, it had not ensured personnel had
               received adequate training to manage grants.

                             Performance Monitoring and Oversight

               The Department had not ensured that the TPOs effectively
               monitored the SGIG program. In particular, we found that the
               TPOs were not involved in the review and approval of indirect
               costs submitted by recipients during the grant application process.
               Rather, the contracting officers were responsible for approving the
               components of indirect cost rates as part of the grant award.
               Therefore, most TPOs compared the indirect rates claimed for
               reimbursement to the rate approved in the award agreement and
               did not perform any further checks as to the validity of the rate. In
               addition, most of the TPOs did not have a complete understanding
               of how indirect costs were calculated and applied by recipients.
               Had the TPOs coordinated with the contracting officers and
               completed effective reviews of indirect costs, certain cost-related
               issues discovered during our review may have been identified and
               remediated. In preliminary comments on our report, officials
               noted that the contracting officer had provisionally approved
               recipients' indirect rates and would verify the costs at the end of
               the grants with final cost incurred audits. However, the lack of
               coordination between the TPO and contracting officer led to the
               Department reimbursing one recipient twice for the same costs
               related to transportation. While reimbursements are subject to
               final audit and recovery if deemed inappropriate, relying on the
               audit as a general control mechanism creates a higher than
               necessary risk that the Department will be unable to recover funds
               from recipients when grant funds have been completely expended.




Page 4                                                          Details of Finding
                       We also found that the Department's approach to limit Federal
                       involvement in grant implementation contributed to cyber security
                       plans that lacked thorough descriptions by recipients as to how all
                       minimum security controls would be implemented in their
                       respective environments. While officials were aware of the many
                       weaknesses in the plans, they approved them even though they did
                       not sufficiently detail the minimum standards specified in the
                       award terms. As a result, the approved cyber security plans did not
                       adequately address security risks or planned cyber security
                       controls.

                                                     Training

                       Department officials had not ensured that all personnel involved in
                       the SGIG program received adequate training related to managing
                       grants under their purview. Specifically, in an accelerated effort to
                       establish a new grants management office, OE hired many new
                       employees and enlisted the help of employees within other areas of
                       the Department to oversee the SGIG program. However, we noted
                       that only 2 of 10 TPOs were trained and certified in accordance
                       with Department policies and procedures. One of these two
                       individuals had received certification that allowed him to oversee
                       only grants and cooperative agreements under $10 million.
                       However, each of the TPOs was monitoring Smart Grid projects
                       well above that threshold, including five individuals that were
                       responsible for grants ranging from $100 million to $200 million.
                       In comments to our draft report, OE officials noted that they
                       planned to ensure that the TPOs receive the necessary training for
                       the certification that allows them to oversee grants and cooperative
                       agreements above the $10 million threshold.

Realization of Goals   Without improvements in monitoring and oversight of the SGIG
and Objectives         program, there is a significant risk that certain goals and objectives
                       of the Smart Grid may not be fully realized. For example,
                       reimbursement of costs that do not support Smart Grid goals do not
                       enhance the overall reliability of the power grid and divert funds
                       from other projects that could help the grid to function in a more
                       efficient and cost-effective manner. As noted in the report, we
                       questioned reimbursements totaling more than $2 million for
                       activities related to the use of Federal funds to meet cost-share
                       obligations and duplicate cost reimbursement. Had the
                       Department only reimbursed costs that fully supported the
                       modernization goals of the SGIG program, it could have applied
                       the questioned amounts towards other projects or awarded
                       additional grants. In addition, as our review only evaluated 20 of




Page 5                                                                   Details of Finding
                   the 99 grants awarded, the amount of Recovery Act funds the
                   Department paid to recipients for projects that do not support the
                   program's goals may be higher.

                   Issues with grantee cyber security plans for Smart Grid projects
                   could also result in poorly implemented controls, leaving the
                   power grid susceptible to compromise by malicious individuals.

RECOMMENDATIONS    To help improve the Department's ability to effectively administer
                   and monitor the SGIG program, we recommend that the Assistant
                   Secretary, Office of Electricity Delivery and Energy Reliability
                   ensure that:

                      1. The allowability of the costs questioned in this report is
                         determined and program procedures are updated, as
                         needed;

                      2. Grantees' cyber security plans are complete, including
                         thorough descriptions of potential security risks and related
                         mitigation through necessary cyber security controls;

                      3. An effective methodology for monitoring the SGIG
                         program is developed and implemented; and,

                      4. Technical Project Officers are adequately trained and
                         certified to manage the grants under their purview.

MANAGEMENT         Management generally concurred with the report's recommendations
REACTION AND       and indicated that action was planned, or had been initiated to
AUDITOR COMMENTS   respond to the four recommendations in the report. Management's
                   proposed or initiated corrective actions are responsive to our
                   recommendations. Management's comments indicated concerns
                   with a number of assertions related to cost reimbursement and cyber
                   security made in our report. We have addressed management's
                   comments below and made technical changes to the report, as
                   appropriate. Management's comments are included in their entirety
                   in Appendix 3.

                                          Cost Reimbursement

                   Management commented that it believed it had acted in full
                   compliance with the law and Federal procurement regulations with
                   regards to reimbursing costs related to recapturing the residual
                   value of obsolete meters and the use of Federally-sourced
                   reimbursements to meet a portion of recipients' cost share
                   requirements. In addition, management indicated that it believed



Page 6                                          Recommendations and Comments
         the language in the report incorrectly implied intentional and
         willful violation of these regulations when projects were chosen
         for award. Specifically, management commented that it made the
         decision to reimburse the costs of the obsolete meters based on two
         considerations. The cost principles in the Federal Acquisition
         Regulations (FAR) allowed the recipient to claim losses on the
         disposition of depreciable property. Additionally, the reimbursed
         costs for outdated meters supported the goals of the SGIG program
         and the cost recovery treatment by local utility regulators allowed
         for recovery of these costs. Management also believed it had not
         allowed one recipient to use Federally-sourced funds to meet its
         cost-share requirement.

         After further evaluation, we agree that the FAR allows grant
         recipients to claim reimbursement for the residual value of
         obsolete meters and have made changes to remove this information
         from the report, as necessary. However, we continue to disagree
         that Federally-sourced funds were not used to meet the cost-share
         requirements for one grant recipient. In particular, the recipient's
         project budget documentation clearly shows it would contribute
         only a small amount of its own funds to the project, and planned to
         use Federally-sourced reimbursements from its partners to meet the
         remaining cost-share requirements. As noted in the report, at the
         time our analysis was performed the Department had funded
         roughly 60 percent of the recipient's project even though the SGIG
         program required that no funds from a Federal source be used to
         meet cost-share requirements and that Federal contribution not
         exceed 50 percent of the total project cost. While management
         observed that our report could lead one to the impression that the
         Department's actions were completed in a willful or intentionally
         negligent manner, we do not assert that such was the case.

                                   Cyber Security

         Management also commented that there are currently no Federal or
         state standards or regulations that mandate cyber security processes
         or practices for electric distribution systems. Therefore, to ensure
         its recipients take cyber security seriously in the absence of such
         rules, the Department required each project to develop a cyber
         security plan that was signed by a corporate officer. The plans
         were then reviewed by the Department's cyber security experts,
         and approved by individual recipient's TPOs. Management further
         relayed its concern regarding the potential for confusion about the
         required contents for each SGIG project's cyber security plan, as
         stated in the report. In particular, management noted that our
         statement regarding cyber security plan requirements, such as



Page 7                                                          Comments
         detailed descriptions of the recipients' risk assessment processes,
         risk mitigation strategies, and cyber security controls, were never
         included in any Department guidance to the recipients. In fact, the
         cyber security plans were intended to be flexible enough to be
         tailored to specific project needs and, management felt, should
         focus on the recipient's cyber security methodologies and provide
         sufficient details on the approaches. Finally, management stated
         that the cyber security plans were reviewed by cyber security
         subject matter experts, the final version was approved by the
         Department, and a progress review of the recipient's cyber security
         implementation was an integral part of the annual site visit. As a
         result of the site visit review, many recipients are in the process of
         updating and strengthening their cyber security plans.

         We agree with management's statements regarding the lack of
         cyber security standards or regulations for electric distribution
         systems, as noted in the report. However, awards were granted to
         recipients with control over all aspects of the Nation's electric grid,
         to include both transmission and distribution systems. Therefore,
         we believe that the SGIG program provided the Department a
         unique opportunity to promote strong cyber security programs
         among its recipients; an area which, based on the issues identified
         during our audit, could have been more thoroughly explored. We
         also believe that the Department should take steps to ensure the
         submitted cyber security plans are complete, being implemented,
         and are updated as situations warrant. While we agree that a cyber
         security plan should be flexible enough for tailoring to each
         project, the plan should contain sufficient information to assess the
         grant recipient's cyber security posture.

         We agree with management's statement that Department guidance
         to recipients did not require detailed descriptions of cyber security
         controls. However, the SGIG Program Management Plan
         identified the requirement for recipients' cyber security plans, to
         include detailed descriptions of the recipient's risk assessment and
         mitigation processes and other standards to which the projects
         would adhere. This information was formally provided to the
         recipients as part of the project deliverables lists in the terms and
         conditions of the grant agreement.




Page 8                                                             Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department)
              adequately administered and monitored the Smart Grid Investment
              Grant (SGIG) program.

SCOPE         The audit was performed between November 2010 and January
              2012, at Department Headquarters in Washington, DC and various
              grant recipients in Texas and Arizona. Reimbursement
              information for additional grant recipients was also reviewed.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and Department policies,
                       including those pertaining to securing Smart Grid
                       technologies;

                   •   Reviewed applicable guidance issued by the National
                       Institute of Standards and Technology and the Federal
                       Energy Regulatory Commission;

                   •   Reviewed prior reports issued by the Office of Inspector
                       General and the U.S. Government Accountability Office;

                   •   Obtained documentation from and held discussions with
                       officials from the Department's Office of Electricity
                       Delivery and Energy Reliability;

                   •   Reviewed invoices submitted by grant recipients for
                       appropriateness; and,

                   •   Reviewed selected approved recipient cyber security
                       plans for completeness.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our finding and
              conclusions based on our audit objectives. Accordingly, we
              assessed significant internal controls and the Department's
              implementation of the Government Performance and Results Act of
              1993 and determined that it had established performance measures
              for management of its SGIG activities. Because our review was
              limited, it would not have necessarily disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did
              not rely on computer-processed data to satisfy our audit objective.
              An exit conference was held with Department officials on
              January 12, 2012.

Page 9                                     Objective, Scope and Methodology
Appendix 2

                                    RELATED REPORTS

Office of Inspector General Report

   •   Federal Energy Regulatory Commission's Monitoring of Power Grid Cyber Security
       (DOE/IG-0846, January 2011). Although the Federal Energy Regulatory Commission
       (Commission or FERC) had taken steps to ensure the Critical Infrastructure Protection
       (CIP) cyber security standards were developed and approved, such standards did not
       always include controls commonly recommended for protecting critical information
       systems. In addition, the CIP standards implementation approach and schedule approved
       by the Commission were not adequate to ensure that systems-related risks to the Nation's
       power grid were mitigated or addressed in a timely manner. Despite their importance to
       protecting the power grid, the CIP standards did not include a number of security controls
       commonly recommended for government and industry systems, including both
       administrative and mission-related systems. These problems existed, in part, because the
       Commission had only limited authority to ensure adequate cyber security over the bulk
       electric system. While the Energy Policy Act established the Commission's authority to
       approve, remand, or direct changes to proposed reliability standards, the Commission did
       not have the authority to implement its own reliability standards or mandatory alerts in
       response to emerging threats or vulnerabilities.

U.S. Government Accountability Office Report

   •   Electricity Grid Modernization (GAO-11-117, January 2011). The National Institute of
       Standards and Technology (NIST) had developed and issued, in August 2010, a first
       version of its Smart Grid cyber security guidelines. The agency developed the guidelines
       – for entities such as electric companies involved in implementing Smart Grid systems –
       to provide guidance on how to securely implement such systems. However, NIST did not
       address the risk of attacks that use both cyber and physical means. In addition, NIST
       identified other key elements that surfaced during its development of the guidelines that
       need to be addressed in future guideline updates. Until the missing elements are
       addressed, there is an increased risk that Smart Grid implementation will not be secure as
       otherwise possible. In addition, FERC began, in 2010, a process to consider an initial set
       of Smart Grid interoperability and cyber security standards for adoption, but had not
       developed a coordinated approach to monitor the extent to which industry is following
       these standards. While the Energy Independence and Security Act of 2007 gave FERC
       authority to adopt Smart Grid standards, it did not provide FERC with specific
       enforcement authority. Additionally, although regulatory fragmentation complicated
       oversight of Smart Grid interoperability and cyber security, FERC had not developed an
       approach coordinated with other regulators to monitor whether industry was following
       the voluntary standards it adopted.




Page 10                                                                        Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                 IG Report No. OAS-RA-12-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
